  NATIONAL AERONAUTICS AND SPACE ADMINISTRATION
                    OFFICE OF INSPECTOR GENERAL




    ALLEGED ETHICS VIOLATION BY
      THE NASA ADMINISTRATOR
INVOLVING MARATHON OIL CORPORATION




                             INVESTIGATIVE SUMMARY




                               SEPTEMBER 20, 2010
Summary
This report summarizes a NASA Office of Inspector General (OIG) investigation into allegations
that NASA Administrator Charles F. Bolden, Jr. inappropriately consulted with Marathon Oil
Corporation (Marathon), a company in which he has a significant financial interest, while he was
considering NASA’s involvement with an alternative fuel development project. The project,
known as the Offshore Membrane Enclosure for Growing Algae or OMEGA, seeks to produce
fuel through controlled offshore reactions of wastewater and algae. Complaints received by the
OIG claimed that Bolden engaged in a conflict of interest by consulting with Marathon. The
allegations against Bolden became public on June 20, 2010, when an article appeared in The
Orlando Sentinel. 1
On April 30, 2010, Bolden spoke by telephone with a senior Marathon official for approximately
10-15 minutes seeking her technical perspective on the viability of algae-based fuels. At the
time of his call, Bolden was considering a proposed memorandum of understanding (MOU)
between NASA and the Department of the Navy (Navy) relating to the OMEGA project. Also at
that time, Bolden owned between $500,000 and $1 million in Marathon stock and had served on
Marathon’s Board of Directors for the 6 years immediately prior to his becoming NASA
Administrator.
During the course of our investigation, we interviewed 15 NASA employees, including
Administrator Bolden, Deputy Administrator Lori Garver, Ames Research Center Director
Simon “Pete” Worden, Aeronautics Research Mission Director Jaiwon Shin, OMEGA’s lead
scientist Jonathan Trent, and General Counsel Michael Wholley, as well as officials from
Marathon, the Navy, and the White House Counsel’s Office. We also reviewed hundreds of e-
mails and related documents from NASA and Marathon and consulted with officials at the
Federal Bureau of Investigation, the Department of Justice, and the Office of Government Ethics.
In sum, we found no evidence that Bolden or Marathon received a present or promised financial
benefit as a result of Bolden’s call. We also found that the information Bolden received from
Marathon did not cause him to withhold funding to the OMEGA project or to direct that the
proposed MOU with the Navy be abandoned.
We concluded that Bolden’s contact with Marathon regarding OMEGA did not violate federal
laws or regulations pertaining to conflicts of interest. However, we found that the contact was
not consistent with the Ethics Pledge he, as an Administration appointee, had signed, and that it
raised concerns about an appearance of a conflict of interest involving the NASA Administrator
and a large oil company to which he had financial ties.
When interviewed by the OIG about this matter, Bolden readily acknowledged that he had erred
in contacting Marathon. Bolden said he has since recused himself from issues involving
OMEGA and has received supplemental training regarding his ethical responsibilities.
In a related matter, we disagree with the determination made by NASA attorneys that it was not
necessary to report Bolden’s contact with Marathon to the OIG.


1
 Robert Block and Mark K. Matthews, The Orlando Sentinel, June 20, 2010, “NASA Boss Investigated for Possible
Conflict of Interest on Biofuel Project.”


                                                     1
Background
Bolden was confirmed as NASA Administrator on July 26, 2009. Upon confirmation, he signed
standard ethics forms and agreements promising “not [to] participate personally and substantially
in any particular matter that has a direct or predictable effect” on his financial interests or the
financial interests of certain family members or business associates. In addition, he signed an
“Ethics Pledge” stating in pertinent part that “I will not . . . participate in any particular matter
involving specific parties that is directly and substantially related to my former employer or
former clients . . ..” Under the Pledge, a “particular matter” is defined to include “any . . .
communication relating to the performance of one’s official duties with a former employer . . .
unless the communication applies to a particular matter of general applicability and participation
in the meeting or other event is open to all interested parties.”
Immediately prior to his appointment as Administrator, Bolden served on Marathon’s Board of
Directors for approximately 6 years. Although he resigned this position upon assuming his
NASA duties, he retained ownership of a substantial amount of Marathon stock. At the time of
the events at issue in this investigation, this stock was valued at between $500,000 and
$1 million.

History of the OMEGA Project at NASA

OMEGA is a relatively small research project run out of NASA’s Ames Research Center
(Ames). The project’s lead NASA scientist and principal investigator is Jonathan Trent. 2
NASA’s website describes OMEGA as follows:

           The OMEGA system consists of large plastic bags with inserts of forward-
           osmosis membranes that grow freshwater algae in processed wastewater by
           photosynthesis. Using energy from the sun, the algae absorb carbon dioxide
           from the atmosphere and nutrients from the wastewater to produce biomass
           and oxygen. As the algae grow, the nutrients are contained in the
           enclosures, while the cleansed freshwater is released into the surrounding
           ocean through the forward-osmosis membranes.

           Potential benefits include oil production from the harvested algae, and
           conversion of municipal wastewater into clean water before it is released
           into the ocean. After the oil is extracted from the algae, the algal remains
           can be used to make fertilizer, animal feed, cosmetics, or other valuable
           products. This successful spinoff of NASA-derived technology will help
           support the commercial development of a new algae-based biofuels industry
           and wastewater treatment. 3

Since 2008, Trent and Ames Director Worden have been actively and aggressively promoting
OMEGA, and Trent has made numerous presentations about the OMEGA project to government,
2
    A principal investigator is the scientist in charge of an experiment or research project.
3
 NASA Lunar Science Institute, “Offshore Membrane Enclosure for Growing Algae (OMEGA),” (April 1, 2010)
http://lunarscience.arc.nasa.gov/articles/OMEGA


                                                              2
academic, and energy industry audiences. In fact, on his own initiative Trent made a telephonic
presentation regarding OMEGA in September 2009 to Linda Capuano, Marathon’s Vice
President for Emerging Technology. Capuano told the OIG that although she found Trent’s
presentation interesting, she considered OMEGA to be at the concept stage, and that Marathon
was not interested in participating in or pursuing OMEGA-related research. Apart from this
single telephone conversation, Capuano said she has had no further contact with Trent.
In August 2009, shortly after her confirmation as NASA Deputy Administrator, Garver visited
Ames and attended a presentation by Trent regarding OMEGA. Trent said he recommended to
Garver that NASA fund the project at the $10 million level. Prior to this time, OMEGA had
secured only about $800,000 in funding, primarily from a grant from the California Energy
Commission along with a small contribution from Ames.
Bolden told the OIG that he remembered having conversations with Garver after her visit to
AMES in which she expressed support for OMEGA, but did not believe that any of these
conversations addressed the technical feasibility of OMEGA or NASA’s role in alternative fuel
development.
According to Shin, head of NASA’s Aeronautics Research Mission Directorate (Aeronautics
Directorate), after her visit to Ames Garver spoke to him about finding additional funding for
OMEGA in the Aeronautics Directorate’s research budget. Shin said that although OMEGA was
an attractive concept for alternative fuels research, he told Garver that he viewed fuel
development as an issue beyond the scope of NASA’s role in aeronautics research. He said that
prior to discussing OMEGA with Garver, he was aware that Worden and Trent were searching
for additional funding for the project and described a June 2009 visit to Ames during which
Trent briefed him on OMEGA and Worden strongly urged him to consider dedicating
Aeronautics Directorate funds to the project, arguing that it could potentially lead to an
alternative aviation fuel source. Shin responded that he would keep OMEGA under
consideration, but saw no compelling reason why NASA should fund research beyond the scope
of its Aeronautics mission. Shin told the OIG that in his view NASA should focus its funding on
issues such as how to adjust combustible fuel engines to get the best performance from different
types of biofuels rather than developing the alternative fuels itself. He also said the Department
of Energy believed that other types of biofuels could be developed sooner and more readily than
algae-based products.
Shin told us that despite his objections, Garver “urged” him to find $10 million for OMEGA. He
said it was difficult to identify this level of funding because $10 million represented a significant
portion of the discretionary part of the Aeronautics Directorate’s annual research budget and
would cause other research efforts to be displaced. 4 Shin said he identified $1 million of funding
for the project, an amount he viewed as sufficient to support “conceptual and preliminary
design” efforts, and transferred this money to Ames for OMEGA on November 2, 2009.

Shin told the OIG that for the remainder of 2009 Garver continued to pressure him to “fully
fund” OMEGA. As a result, on January 8, 2010, the Aeronautics Directorate entered into a

4
 NASA’s Aeronautics Directorate received an appropriation of $501 million in FY 2010. According to Shin, most
of the Directorate’s budget represents fixed research costs, with minimal funds available for discretionary projects.



                                                          3
written agreement with Ames under which it would provide OMEGA approximately $10 million
over 2 years, with the money phased in over that period subject to successful external reviews of
the project. The agreement also required Ames to find “strategic partnerships” with other
government agencies and private industry with the goal of transferring the OMEGA technology
at the end of the 2-year period.

Shin told the OIG that following a successful preliminary design review in June 2010, he
released additional funding to the OMEGA project and anticipates that more will follow before
the end of fiscal year (FY) 2010. If subsequent technical reviews are favorable, Shin said the full
$10 million will be transferred to the project by the end of FY 2011. 5 Shin said he made these
funding decisions regarding OMEGA without Bolden’s involvement or influence.

Proposed Agreement with the Department of the Navy

In September 2009, Trent made a presentation on OMEGA before an energy conference
sponsored by the Navy at which he met Rear Admiral Philip H. Cullom, Director of
Environmental Readiness and Task Force Energy for the Navy. Cullom told the OIG that the
Navy has been aggressively pursuing alternative fuels research and is committed to having 50
percent of its fuel consumption use alternative fuels by 2020. Cullom said he was particularly
interested in OMEGA because it required no land use, involved minimal cultivation, and had
environmentally friendly side-effects. He said he followed up with Trent about OMEGA after
the conference.
Trent and Worden said they saw the Navy as a potential supporter of OMEGA research, and in
April 2010 Trent drafted an MOU between NASA and the Navy with the hope that it would be
signed and publically announced by “Earth Day” on April 22, 2010. According to Cullom, the
Navy supported the agreement but recognized that creating an inter-agency MOU was a lengthy
process.
Bolden and Shin both told the OIG that they first learned of the proposed MOU on April 5, 2010,
when Shin received an e-mail from the Director of Ames’ Aeronautics Research forwarding
Trent’s draft MOU. In response, Shin sent an e-mail back to the Director and Trent on which he
copied Bolden, stating that he “welcomed the opportunity to collaborate with the Navy.”
However, Shin told the OIG that he thought signing and announcing the MOU by Earth Day was
highly unlikely. Bolden told the OIG that in his experience MOUs take “about a year” to finalize
and that at the time he received Shin’s e-mail he felt he needed more information about the
technical feasibility of OMEGA and NASA’s role in alternative fuel development.
In an effort to learn more about OMEGA, Bolden sent an e-mail to Shin on April 5 requesting a
briefing. He also contacted NASA General Counsel Wholley and Mike O’Brien, NASA’s
Deputy Assistant Administrator for International and Interagency Relationships, about the MOU.
Both men told Bolden they were unaware of the proposed agreement and had not been consulted
on the matter.

5
 The OIG confirmed with the Aeronautics Research Resource Manager the following transfers to Ames for
OMEGA: $1 million on November 2, 2009; $500,000 each on November 30, 2009, and on April 28, 2010; and
$3 million on July 8, 2010; for a total of $5 million in funding to OMEGA in FY 2010.



                                                    4
Bolden said he met with Shin on April 6, 2010, and received a “full briefing on the technical
merits” of OMEGA. Bolden said Shin informed him at this meeting that the Aeronautics
Directorate was funding a “feasibility demonstration” of OMEGA. Shin said Bolden asked him
how other parties viewed the technology and that he told Bolden what he had previously told
Garver, Trent, and Worden: that NASA should not be spending $10 million on a fuel
development research project that was beyond the scope of NASA’s mission. Further, Shin said
he told Bolden that the Department of Energy believed other types of biofuels could be
developed more readily and that the Federal Aviation Administration preferred that NASA focus
its aeronautics research on the development of combustible fuel systems that would allow the use
of biofuels as well as traditional fuels. Shin described Bolden’s reaction to his briefing as
“neutral.”
Bolden told us that by the end of the meeting he agreed with Shin’s views on the OMEGA
project. Like Shin, Bolden said he believed that NASA’s aeronautics research should focus on
the development of fuel systems rather than the fuels themselves, and that other government
agencies and perhaps the private sector were better positioned than NASA to conduct fuel
development research.
That same day, Bolden sent several members of his senior staff an e-mail stating that “we are
quite a ways away from a NASA-Navy MOU on OMEGA” and that he was uncertain how much
NASA should be investing in alternative fuels development when other government agencies
have this responsibility. Garver responded to Bolden by e-mail the same day reiterating her
support for the project, and asking Bolden not to “write this off yet.” In response, Bolden told
Garver that he had “heard from some quarters (other agencies) that we could be more helpful as
partners in ongoing research that may be ahead of ours” and that he would be seeking input from
others inside NASA to help him get “up to speed” on the issue. He ended the e-mail by assuring
Garver that “We’ll get to the right answer on this one!”

Bolden Contacts Marathon
Ultimately, the proposed Earth Day deadline for signing the MOU was postponed. However,
Bolden told us that he still was seeking information about the feasibility of deriving fuel from
algae. He said he recalled that Marathon might have some expertise in this area and decided to
contact the company to gather additional technical information and perspective concerning the
use of algae as biofuel.
Bolden said that in late April 2010 he contacted Marathon’s Counsel’s Office and asked to speak
with someone at the company with knowledge of algae-based biofuels. He stated that he made
this call from his NASA office or cell phone and consulted no one before doing so. Bolden said
he considered for a “nano-second” that he should not make the call, but quickly reasoned that the
contact was permissible because Marathon had no business connection to NASA, which he
considered evident from the fact that he had been permitted to retain his Marathon stock when he
became NASA Administrator.
Melody Halfen, a Senior Law Administrator for Marathon, told the OIG that Bolden contacted
her on April 26, 2010, and asked to speak with someone at the company about biofuels
development and OMEGA. Bolden’s request was ultimately directed to Capuano, Marathon’s
Vice President for Emerging Technology. Capuano informed Marathon’s Chief Executive


                                                5
Officer, Clarence P. Cazalot, of Bolden’s call and outlined her intended response in an e-mail to
Cazalot. In the e-mail, Capuano speculated that Bolden might request Marathon’s participation
in the OMEGA project and stated that she intended to decline such a request. She also told
Cazalot that she planned to tell Bolden that she was prepared to host a teleconference to allow
NASA to “present the technology to our biofuels team” and that Marathon “would be interested
in analyzing fuel samples produced by the OMEGA process in order to provide feedback to
NASA and [so that] Marathon could also understand and adapt to future sources of fuel.”
Capuano told the OIG that she called Bolden on April 30 and told him that Trent had previously
given her and other Marathon employees a comprehensive presentation on OMEGA. Capuano
said she began her conversation with Bolden under the assumption that they were going to
discuss possible participation by Marathon in the OMEGA project. Instead, she said Bolden
asked for her views and insights on algae-based fuels in general. Capuano said that she provided
Bolden with general information on the topic, including her view that people in the biofuels
industry were over-focused on “reactors” and growing algae rather than addressing the more
difficult and complex aspects of how to extract fuel from the process. Capuano said Bolden told
her that he had received similar feedback from others.
According to Capuano, the call lasted about 10 minutes and she had no subsequent contact with
Bolden. Capuano said the information she shared with Bolden was the same information she had
provided on numerous occasions in public presentations and discussions, and that her discussion
with Bolden had no effect on Marathon’s approach to algae-based fuels. Nevertheless, she said
she found the discussion with Bolden helpful because it confirmed that her perspective on algae-
based fuels was similar to the perspective of others in the field.
Capuano’s description of her call with Bolden is consistent with a post-call e-mail she sent to
Cazalot:
           I spoke with Charlie Bolden briefly. He is making investment decisions and
           wanted insight into algae. 6
           I spent a few minutes on a brief perspective we provided to the ExCo 7
           which ended with the conclusion that, while a lot of work is being done in
           growing algae, not much is being done in de-wetting and extracting to
           produce commercial volumes.
           Also, Marathon has asked producers to provide samples of algae fuel, but
           we have not gotten sufficient samples to give us a good first hand
           understanding of the fuel characteristics.
           Charlie responded that he was getting similar feedback from other sources
           and thanked me for my insight.


6
 Capuano explained to the OIG that “investment decisions” was her term, not Bolden’s, and that she used it in an
attempt to describe Bolden’s desire to get an assessment of algae-based fuels.
7
    The abbreviation “ExCo” used by Capuano refers to Marathon’s Executive Committee.



                                                        6
        The call totaled about 10 minutes.
        The call was helpful because Charlie validated that our independently
        developed perspective is similar to others.
        Have a good weekend.
Bolden told the OIG that during the phone call Capuano told him about Trent’s prior
presentation to Marathon concerning OMEGA and said that Marathon had no interest at that time
in obtaining fuel from algae or becoming involved in the OMEGA project. According to
Bolden, Capuano told him that OMEGA simply did not have the capacity to produce fuel in
sufficient quantities to interest Marathon. Bolden estimated that the conversation with Capuano
lasted about 15 minutes, and said he had no subsequent contact with Capuano or anyone else at
Marathon.
On May 2, 2010, Bolden sent an e-mail to Garver and Shin, with copies to five other senior
NASA officials including Worden, stating that:
        I continue to have doubts about the viability of this project [OMEGA],
        especially after discussions with representatives of the Marathon Oil
        Corporation who received a brief recently from Trent. I have found no
        one outside NASA who feels this is a good investment in research funds at
        this time due to significant problems with process control and any promise
        of production in quantities to be of any use to industry. 8 As long as you
        feel comfortable, however, with the information you have received to date
        and no one else has strong objection, I suggest we keep the ball rolling on
        the MOU, but insure that we have our technical act together before the
        MOU is actually signed.
Garver responded to Bolden that same day, with copies to Shin, Worden, and others on the
senior staff, stating:
        Thanks for the reply. We obviously will continue to research it and make
        sure it is on track and of value. No one wants to go forward if this is not
        the case. We’ll pursue the MOU while we continue to evaluate the
        effectiveness of the project technically.
The following day Worden sent an e-mail to Garver referencing Bolden’s May 2 e-mail.
        Jonathan [Trent] tells me he talked to some guy from Marathon Oil a year
        ago on the phone and that was it. In the interest of open government and
        transparency I think my folks are entitled to know who talked to Charlie
        and the basis of their criticism so we can respond. This is frankly the
        worst of NASA and I don’t like it. It is “good ole boy” networks at it’s
        [sic] worst and not worthy of NASA and this Administration. Anything I

8
 Bolden told the OIG that he did not personally consult with any other agency or entity regarding algae-based fuels
and that this reference was to the information he had received from Shin and Marathon.



                                                         7
           can do about it? It seems to be happening a lot. Charlie talks to
           “someone” he knows – often an astronaut. We get “convicted” without
           knowing the evidence, the accuser or with any due process.
           I know you are frustrated too. But this is the “Never the Straight Answer”
           NASA we came to fix. At least Griffin allowed us a day in court with an
           open discussion of the technical facts and conflicts of interest out on the
           table
           In the meantime, we are lining up the technical counters. But to do a
           professional job I need to know the “facts” being used against us. 9

Media Inquiry and NASA Office of General Counsel Involvement
On May 28, 2010, Bolden was contacted by a newspaper reporter seeking comment on his
contacts with Marathon regarding the OMEGA project. Bolden declined to respond to the
reporter’s questions and notified the NASA Office of General Counsel (OGC). At the time,
General Counsel Wholley was out of the office on leave and therefore Bolden spoke with
Richard W. Sherman, Deputy General Counsel, and Andrew Falcon, a NASA Associate General
Counsel with ethics responsibilities.
Bolden said he summarized for the OGC attorneys the nature and extent of his communication
with Marathon. At Falcon’s direction, an OGC attorney spoke with Marathon’s Capuano and
Halfen by telephone and also consulted with a White House Deputy Associate Counsel regarding
whether Bolden’s actions contravened conflict of interest laws or the Ethics Pledge he had signed
as a Presidential appointee. 10
Based on the information provided by Bolden, Halfen, and Capuano, the OGC attorneys
concluded that Bolden’s contact with Marathon did not violate federal conflict of interest laws or
regulations. OGC attorneys told the OIG that this conclusion was based on the fact that
Marathon did not have a financial interest in OMEGA, was not a party to the proposed MOU
with the Navy, and was not interested in participating in the OMEGA project.
With regard to the Ethics Pledge, OGC lawyers told the OIG that the White House Deputy
Associate Counsel expressed the view that Bolden should have acted more prudently concerning
his contact with Marathon and characterized his actions as a procedural violation of the Pledge.
They said the Deputy Associate Counsel recommended that Bolden receive refresher ethics
training, which the OGC lawyers said they provided to Bolden on June 1, 2010.
During his interview with the OIG, the White House Deputy Associate Counsel said that his
office has made no formal determination as to whether Bolden violated his Ethics Pledge.
However, he said that based on the limited facts before him at the time of his conversation with
the OGC attorney, he believed that Bolden “could likely have violated” the Pledge, and that
counseling was the appropriate response.


9
    Portions of this e-mail were quoted in Block and Matthews’ June 20 Orlando Sentinel article.
10
     Wholley learned of these actions the following week when he returned from leave.


                                                           8
At no point in this process did OGC attorneys alert the OIG about Bolden’s contact with
Marathon. When asked why not, they told the OIG that they saw no need to do so because it was
clear to them that no crime had occurred.
Bolden told the OIG that at some point he raised with General Counsel Wholley whether he
(Bolden) should inform the OIG about his contact with Marathon, but that Wholley told him it
was not necessary to do so. Wholley told the OIG that when Bolden asked him about reporting
the matter to the OIG he responded that reporting was not necessary because Bolden’s contact
with Marathon was not a criminal matter and therefore did not trigger a reporting obligation.
During his OIG interview, Bolden acknowledged that reaching out to Marathon regarding
OMEGA was “inappropriate,” and noted that he has since removed himself from any matters
relating to the OMEGA project.
Analysis

Several federal ethics laws and regulations are potentially implicated by Bolden’s contact with
Marathon. First, 18 U.S.C. § 208 prohibits a federal government employee such as Bolden from
participating “personally and substantially” in a “particular matter in which, to his knowledge, he
. . . has a financial interest.” Section 208 is a felony criminal statute that carries a maximum
penalty of 5 years’ incarceration.

Second, 5 C.F.R. § 2635.502 provides that “[w]here an employee knows that a particular matter
involving specific parties is likely to have a direct and predictable effect on the financial interest
of a member of his household, or knows that a person with whom he has a covered relationship
is or represents a party to such matter, and where the employee determines that the circumstances
would cause a reasonable person with knowledge of the relevant facts to question his impartiality
in the matter, the employee should not participate in the matter unless he has informed the
agency designee of the appearance problem and received authorization from the agency
designee . . . .” Unlike the criminal statute described above, section 2635.502 is an Executive
Branch Office of Government Ethics (OGE) regulation and failure to comply with its terms
could lead to disciplinary sanctions.

Third, as noted above, Bolden signed the Ethics Pledge pursuant to Executive Order 13490,
which imposes a 2-year ban on participating in any particular matter involving specific parties
that directly and substantially relates to his former employer. 11 Under the Pledge, a “former
employer” includes any entity for which Bolden served as a director within the 2 years prior to
his appointment as NASA Administrator and “particular matter” includes “any communication
relating to the performance of one’s official duties . . . unless the communication applies to a
particular matter of general applicability and participation in the meeting or event is open to all
interested parties.” Accordingly, under the terms of the Pledge Bolden was prohibited from
private communications with Marathon about official NASA business.

After consulting with federal prosecutors and attorneys from OGE, we determined that Bolden
did not violate either Section 208 of the criminal statute or Section 502 of OGE’s regulation.
11
  Executive Order 13490, entitled “Ethics Commitments by Executive Branch Personnel,” was issued by the
President on January 21, 2009. See http://edocket.access.gpo.gov/2009/pdf/E9-1719.pdf.


                                                      9
With regard to Section 208, there is no evidence that Bolden had a financial interest in whether
NASA proceeded with the MOU with the Navy or in the amount of NASA funding OMEGA
would receive. Although he owned stock in Marathon, there is no logical scenario in which
Bolden’s decisions regarding OMEGA would affect the value of that stock. Even OMEGA’s
supporters do not suggest that the project is anywhere near to producing fuel in the commercially
viable amounts that would be needed to have an effect on the stock price of a company like
Marathon. Moreover, despite his doubts about the project, Bolden did not take steps to limit
NASA’s funding of OMEGA or derail the proposed MOU. Finally, as the Justice Department
prosecutors we consulted with noted, Bolden made no effort to conceal his communication with
Marathon.

Similarly, we concluded that Bolden’s actions did not violate Section 502 because although he
had a “covered relationship” with Marathon due to his stock ownership, Marathon was not a
party to the MOU or any other matter relating to OMEGA. As discussed above, Marathon,
having previously been briefed about OMEGA by Trent, expressed no interest in participating in
the project, a position that did not change after Bolden’s conversation with Marathon executive
Capuano.

With respect to the Ethics Pledge, we conclude that Bolden’s actions did not comport with the
commitments he made in the document. By signing the Pledge, Bolden agreed to refrain for
2 years from having private communications with Marathon or any other former employer
concerning NASA business. Bolden’s telephone call to Marathon related to his official decision
regarding NASA’s participation in the OMEGA project, occurred less than 2 years after his
resignation from Marathon’s Board of Directors, and was not open to all interested parties.
Bolden concedes this contact was inappropriate. We agree.

Finally, Bolden’s contact with Marathon raised the perception of an appearance of a conflict of
interest on his part. Although, as discussed above, we found that no actual conflict of interest
existed, Bolden’s action predictably led to concerns both inside and outside NASA about
whether his actions relating to OMEGA had been improperly influenced by a large oil company
in which he held a substantial amount of stock.

As noted above, Bolden has received supplemental ethics counseling regarding his obligations
under the Pledge and has recused himself from issues relating to OMEGA. We find these
actions appropriate and sufficient to address our findings.

Apart from Bolden’s conduct, one other aspect of this matter requires discussion. As noted
above, although Bolden brought his contact with Marathon to the attention of the OGC, lawyers
in that office did not advise the OIG about the matter and told Bolden it was not necessary for
him to bring the matter to the OIG’s attention. We disagree with the way the OGC attorneys
handled this matter.

Pursuant to the Inspector General Act, the NASA OIG is charged with conducting
“investigations relating to the . . . operations” of NASA [5 U.S.C. App. 3 § 4(a)(1)]. These
investigations can be criminal or administrative in nature, and run the gamut from allegations of
contractor fraud to concerns that a senior NASA manager had been removed from his position in



                                               10
order to scuttle progress on the Agency’s Constellation Program. 12 NASA policy directs Agency
managers to “ensure that all allegations of violations of Federal criminal and civil law and all
allegations pertaining to other crimes, fraud, waste, abuse, and mismanagement received by
management are reported to the IG” [NASA Policy Directive (NPD) 9800.1B, NASA Office of
Inspector General Programs]. That same NPD mandates that “any NASA employee who
observes crime, fraud, waste, abuse, or mismanagement or receives an allegation of crime, fraud,
waste, abuse, or mismanagement from a Federal employee, contractor, grantee, contractor or
grantee employee, or any other source will report such observation or allegation to the OIG.” 13

Bolden’s contact with Marathon – a company on whose Board of Directors he served
immediately prior to his appointment as NASA Administrator and in which he holds at least
$500,000 in stock – at a minimum constituted potential abuse or mismanagement. Accordingly,
we believe that OGC attorneys should have promptly reported this matter to us.

As discussed above, OGC attorneys told the OIG that they did not report the matter and told
Bolden it was not necessary that he do so because they had concluded Bolden’s conduct was not
criminal. But both the Inspector General statute and NASA policy make clear that responsibility
for investigating whether NASA employees have engaged in unethical conduct lies with the
OIG. Nothing in either provision suggests that the OIG’s investigative jurisdiction is limited to
those acts that Agency managers or attorneys determine are likely to constitute a crime. Indeed,
it is the OIG’s responsibility, in consultation with federal prosecutors, to make determinations
about whether NASA employees have engaged in criminal conduct. 14
Finally, we believe that apart from the obligations imposed by the statute and NASA policy,
OGC attorneys did not serve the best interests of the Administrator or NASA by failing to report
the matter to the OIG. At issue was whether the top NASA manager had complied with his
ethical obligations. Because the OIG enjoys a level of independence from the Administrator not
shared by OGC attorneys, Bolden’s actions should have been referred to the OIG for its review
and disposition.




12
  See the NASA Inspector General’s letter to Chairman, Committee on Commerce, Science, Transportation, dated
July 13, 2010, regarding reassignment of the Constellation Program Manager.
13
  In addition, a January 14, 2010, e-mail from Administrator Bolden to all NASA employees directed cooperation
with the NASA OIG, and stated in pertinent part: “The OIG also serves as the point of contact for NASA
employees to report possible criminal activity, fraud, waste, abuse, and mismanagement involving Agency funds or
employees.”
14
  OGC attorneys expressed the view that their actions were both consistent with and necessary to fulfill their
obligations to provide ethics advice to NASA employees. They stated that when an employee self reports a matter
to them, as Bolden did, they must be able to gather information and make an independent assessment as to whether
the described conduct presents a colorable violation. According to the OGC attorneys, in this case the only potential
violation was the Ethics Pledge, and that was a matter for the White House rather than the OIG. We agree that
Agency attorneys may properly make determinations that some matters brought to their attention as possible ethics
violations are so far from the ethical line that they do not require referral to the OIG. However, for the reasons
discussed above we do not agree that this matter involving the NASA Administrator falls into that category.


                                                         11
